TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




               Affordable Care Act: Accuracy of Responses
               to Exchange Requests for Income and Family
                Size Verification Information and Maximum
                 Advance Premium Tax Credit Calculation



                                           July 3, 2014

                             Reference Number: 2014-43-044




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.

Redaction Legend:
2 = Risk Circumvention of Agency Regulation or Statute



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


AFFORDABLE CARE ACT: ACCURACY                          WHAT TIGTA FOUND
OF RESPONSES TO EXCHANGE
                                                       As of March 31, 2014, the IRS received more
REQUESTS FOR INCOME AND FAMILY                         than 27 million IFSV information requests and
SIZE VERIFICATION INFORMATION AND                      more than 11 million APTC requests. Our
MAXIMUM ADVANCE PREMIUM TAX                            review of the IRS’s response to 101,018 IFSV
CREDIT CALCULATION                                     requests received by the IRS between October 1
                                                       and October 4, 2013, showed that the IRS,
                                                       based on the information furnished by the
Highlights                                             Exchange, provided accurate responses for
                                                       100,985 (99.97 percent) of the 101,018
Final Report issued on July 3, 2014                    requests.
                                                       However, TIGTA identified 33 requests for which
Highlights of Reference Number: 2014-43-044
                                                       the IRS incorrectly notified the Exchange that it
to the Internal Revenue Service Chief
                                                       could not provide tax information for individuals
Technology Officer and the Director, Affordable
                                                       for whom the Exchange was requesting
Care Act Office.
                                                       information because the IRS was unable to
IMPACT ON TAXPAYERS                                    match the name on the application to IRS data
                                                       records. These responses were incorrect
Beginning January 1, 2014, most individuals            because the individual’s name used on the
must obtain health insurance that meets                application was in fact available in IRS data
minimum requirements. The Health Insurance             records. This resulted from a computer
Exchanges (also referred to as Marketplaces),          programming error in which IRS data used to
established by the U.S. Department of Health           provide information in response to Exchange
and Human Services and the States, are                 requests did not always contain the most recent
intended to provide a place for Americans to           name information shown on the individual’s tax
shop for health insurance in a competitive             account.
environment. Eligible individuals who purchase
health insurance through an Exchange may               In addition, TIGTA reviewed the IRS’s response
qualify for and request a refundable tax credit,       to 120,824 APTC requests received between
referred to as the Premium Tax Credit, to assist       October 1 and October 14, 2013. This review
with paying their health insurance premium. The        showed that the IRS, based on information
credit can be paid directly to an individual’s         furnished by the Exchange, accurately
health insurance provider as a partial payment         calculated the maximum monthly APTC for all
for their monthly premiums (referred to as the         120,824 requests.
Advance Premium Tax Credit or (APTC)).
                                                       WHAT TIGTA RECOMMENDED
WHY TIGTA DID THE AUDIT                                TIGTA recommended that the Chief Technology
This audit was initiated to ensure that the IRS is     Officer ensure that IRS data records used to
providing accurate information to the Exchanges        provide responses to Exchange requests
to assist in determining an individual’s eligibility   accurately reflect an individual's most recent
to use the Exchange and receive the APTC.              name information contained in IRS tax data.
The overall objective of this review was to            IRS management agreed with TIGTA’s
assess the accuracy of responses to Exchange           recommendation. The IRS has already
requests for Income and Family Size Verification       implemented programming modifications so that
(IFSV) information for the purposes of                 name information fields are now consistent with
determining insurance eligibility and the              the most recent name information shown on the
maximum APTC the individual could receive              individual’s tax account.
each month.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             July 3, 2014


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER AND
                DIRECTOR, AFFORDABLE CARE ACT OFFICE


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Affordable Care Act: Accuracy of Responses to
                             Exchange Requests for Income and Family Size Verification
                             Information and Maximum Advance Premium Tax Credit Calculation
                             (Audit # 201340335)

 This report presents the results of our review to assess the accuracy of responses to Health
 Insurance Exchange requests for Income and Family Size Verification information for the
 purposes of determining insurance eligibility and the maximum Advance Premium Tax Credit
 the individual could receive each month. Our review was limited to verifying the accuracy of the
 IRS’s calculations during the eligibility and enrollment process. This audit was conducted as
 part of our Affordable Care Act strategy and is included in the Treasury Inspector General for
 Tax Administration’s Fiscal Year 2014 Annual Audit Plan. This review addresses the major
 management challenge of Implementing the Affordable Care Act and Other Tax Law Changes.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendation. If you have any questions, please contact me or Russell P. Martin,
 Acting Assistant Inspector General for Audit (Returns Processing and Account Services).
                        Affordable Care Act: Accuracy of Responses to Exchange
                       Requests for Income and Family Size Verification Information
                         and Maximum Advance Premium Tax Credit Calculation




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 10
          Responses to Exchange Requests for Income and Family
          Size Verification Information Are Mostly Accurate .................................... Page 10
                    Recommendation 1:........................................................ Page 11

          Responses to Exchange Requests for Maximum Monthly
          Advance Premium Tax Credit Calculations Are Accurate ........................... Page 11

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 16
          Appendix III – Report Distribution List ....................................................... Page 17
          Appendix IV – Management’s Response to the Draft Report ...................... Page 18
         Affordable Care Act: Accuracy of Responses to Exchange
        Requests for Income and Family Size Verification Information
          and Maximum Advance Premium Tax Credit Calculation




                       Abbreviations

ACA              Affordable Care Act
AGI              Adjusted Gross Income
APTC             Advance Premium Tax Credit
CDR              Coverage Data Repository
FPL              Federal Poverty Level
IFSV             Income and Family Size Verification
IRS              Internal Revenue Service
PTC              Premium Tax Credit
SLCSP            Second Lowest Cost Silver Plan
                     Affordable Care Act: Accuracy of Responses to Exchange
                    Requests for Income and Family Size Verification Information
                      and Maximum Advance Premium Tax Credit Calculation




                                            Background

The Patient Protection and Affordable Care Act of 20101 and the Health Care and Education
Reconciliation Act of 20102 (hereafter collectively referred to as the Affordable Care Act
(ACA)) were both signed into law in March 2010. The ACA legislation seeks to provide more
Americans with access to affordable health care by creating a new Health Insurance Exchange
(hereafter referred to as the Exchange),3 enforcing patient/consumer protections, and providing
Government subsidies for people who cannot afford insurance. The Exchange simplifies an
applicant’s search for health coverage by providing
multiple options in one place and comparing plans based
on price, benefits, quality, and other important features        The Affordable Care Act seeks
that help consumers make a choice.                              to provide more Americans with
                                                                        access to affordable health care.
Beginning January 1, 2014, most individuals were
required to obtain health insurance coverage that
contained essential health benefits including emergency services, maternity and newborn care,
and preventative and wellness services. The Exchanges, established by the U.S. Department of
Health and Human Services and the various States, are intended to provide a place for Americans
to shop for health insurance in a competitive environment. The Exchanges offer insurance plans
by private companies, and individuals can access qualified health plan information online, via a
call center, or in person. The qualified health insurance plans offered through the Exchanges
cover the same core set of essential health benefits, and no plan can turn an applicant away or
charge more because of a preexisting illness or medical condition.
To enroll in health insurance coverage offered through an Exchange, individuals must complete
an application and meet certain eligibility requirements defined by the ACA. Individuals began
using the Exchanges on October 1, 2013, to purchase health insurance for Calendar Year 2014.
Figure 1 provides a list of the States that use the Federally Facilitated Exchange, the States that
use a State Partnership Exchange,4 and the States (including the District of Columbia) that have
developed their own Exchange as of May 14, 2014.




1
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as
amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029. 
2
  Pub. L. No. 111-152, 124 Stat. 1029. (See Affordable Care Act, infra).
3
  Also commonly referred to as the Marketplace.
4
  A State Partnership Exchange is a hybrid model in which the State makes key decisions and works with the
Department of Health and Human Services to tailor the operation of the Federally Facilitated Exchange to meet the
local needs and market conditions in their State.
                                                                                                          Page 1
                      Affordable Care Act: Accuracy of Responses to Exchange
                     Requests for Income and Family Size Verification Information
                       and Maximum Advance Premium Tax Credit Calculation



                       Figure 1: Type of Exchanges Used by the States5

            Federally Facilitated                   State Partnership                   State-Based
                Exchanges                              Exchanges                        Exchanges

        Alabama                                Arkansas                             California
        Alaska                                 Delaware                             Colorado
        Arizona                                Illinois                             Connecticut
        Florida                                Iowa                                 District of Columbia
        Georgia                                Kansas                               Hawaii
        Indiana                                Maine                                Idaho
        Louisiana                              Michigan                             Kentucky
        Mississippi                            Montana                              Maryland
        Missouri                               Nebraska                             Massachusetts
        New Jersey                             New Hampshire                        Minnesota
        North Carolina                         Ohio                                 Nevada
        North Dakota                           South Dakota                         New Mexico
        Oklahoma                               Virginia                             New York
        Pennsylvania                           West Virginia                        Oregon
        South Carolina                                                              Rhode Island
        Tennessee                                                                   Vermont
        Texas                                                                       Washington
        Utah
        Wisconsin
        Wyoming
      Source: Centers for Medicare and Medicaid Services as of May 14, 2014.

Eligible individuals who purchase health insurance through an Exchange may qualify for and
request a refundable tax credit,6 referred to as the Premium Tax Credit (PTC), to assist with
paying their health insurance premium. Individuals may elect to have the PTC paid directly to
their health insurance provider as partial payment for their monthly premiums (hereafter referred


5
  According to the Centers for Medicare and Medicaid Services, no changes have been made in the individual states’
participation as either a Federally Facilitated, State Partnership, or State-Based Exchange since October 18, 2013.
6
  Any tax credit that is refundable can be used to reduce a taxpayer’s tax liability to zero. Any excess of the credit
beyond the tax liability can be refunded to the taxpayer.
                                                                                                              Page 2
                       Affordable Care Act: Accuracy of Responses to Exchange
                      Requests for Income and Family Size Verification Information
                        and Maximum Advance Premium Tax Credit Calculation



to as the Advance Premium Tax Credit (APTC)) or receive the PTC as a lump-sum credit on
their annual Federal tax return at the end of each coverage year beginning with the filing of their
Tax Year7 2014 tax return. Because the PTC is a refundable credit, individuals who have little or
no income tax liability can still benefit. Figure 2 lists the eligibility requirements individuals
must meet to purchase insurance through an Exchange and to qualify for the PTC.
                   Figure 2: Eligibility Requirements to Purchase Insurance
                         From an Exchange and to Qualify for the PTC

        Exchange Eligibility Requirements                         PTC Eligibility Requirements

     Individuals must:                                       Individuals must:
            Live in the United States.                         Buy health insurance through the
                                                                 Exchange.
            Be a U.S. citizen or national (or be lawfully
             present).                                          Be ineligible for health coverage through
                                                                 an employer or government plan.
            Not be currently incarcerated.
                                                                Be within certain income limits.8
                                                                File a joint tax return, if married.
                                                                Not be claimed as a dependent by
                                                                 another person.
    Source: IRS.gov and Healthcare.gov.

Starting in January 2015, individuals must include the amount of the APTC paid to an insurance
provider on their behalf on their tax return and reconcile it to the allowable amount of the PTC.

The Exchange determines an applicant’s eligibility to obtain health insurance and
monthly financial assistance to pay for the health insurance
Individuals applying for financial assistance for insurance obtained through an Exchange must
provide information regarding their income and family status, e.g., marital status and number of
dependents. The Exchange then obtains information from other sources, including other Federal
agencies, to verify the applicant’s information and determine eligibility to obtain coverage
through the Exchange. The Exchange also uses the information obtained to predict what an
individual’s income and family status will be in the year for which health coverage is being
requested. During the Exchange enrollment and APTC eligibility process, the following Federal
agencies perform verifications and provide information:

7
  A 12-month accounting period for keeping records on income and expenses used as the basis for calculating the
annual taxes due. For most individual taxpayers, the tax year is synonymous with the calendar year.
8
  For example, in Calendar Year 2013, income between 100 percent to 400 percent of the Federal Poverty Level
equated to $23,550 to $94,200 for a family of four. More information on the Federal Poverty Level can be found at
https://www.healthcare.gov/glossary/federal-poverty-level-FPL/.
                                                                                                          Page 3
                     Affordable Care Act: Accuracy of Responses to Exchange
                    Requests for Income and Family Size Verification Information
                      and Maximum Advance Premium Tax Credit Calculation



        The U.S. Social Security Administration verifies the applicant’s Social Security Number,
         lawful presence in the United States, wage data, and prisoner status.
        The U.S. Department of Homeland Security verifies the applicant’s legal immigration
         status.
The Internal Revenue Service (IRS) provides tax return information for applicants and their
family members and computes the maximum APTC amount. For example, for those individuals
applying for financial assistance for Calendar Year 2014, the Exchange uses Calendar Year 2012
tax information received from the IRS to predict an individuals’ Calendar Year 2014 income.
The Exchange uses this predicted income and family status to determine if an individual is
eligible to receive an APTC.

Income and Family Size Verification (IFSV) information
The Exchanges submit requests to the IRS using the Department of Health and Human Services
Data Hub9 to obtain the applicant’s IFSV information. The IFSV information consists of
income, family size, and other identifying information for the individuals included on the
application. As of March 31, 2014, the IRS had received more than 27 million IFSV information
requests. The Exchange provides the IRS with the Social Security Number, full name, and
relationship to the tax filer for all individuals on the application. Using the information furnished
by the Exchange, the IRS provides the following information back to the Exchange via the Hub:
        Adjusted Gross Income (AGI). The AGI is gross income minus adjustments to income
         that was reported on the tax return that the IRS used to obtain the IFSV information.
        Applicable Response Codes. If the IRS is unable to provide income and/or family size
         information for the applicant or a member of the applicant’s family, the IRS provides the
         Exchange with a code describing why the information was not provided. Examples of
         issues that would prevent the IRS from being able to provide the requested information
         include the IRS having no tax return information for an individual, the IRS having
         indications of identity theft on the individual’s tax account, or the spouse on the
         application not matching the spouse on the tax return.
        Applicant’s Social Security Number and Spouse’s Social Security Number (if applicable).
         The applicant’s Social Security Number is the one reported on the tax return. When there
         is a spouse on the application, the spouse’s Social Security Number is also included with
         the information provided to the Exchange.



9
  The Hub provides a single point where the Exchanges may access data from different sources, primarily Federal
agencies. The Hub does not store data; rather, it acts as a conduit for the Exchanges to access the data from where
they are originally stored.
                                                                                                             Page 4
                    Affordable Care Act: Accuracy of Responses to Exchange
                   Requests for Income and Family Size Verification Information
                     and Maximum Advance Premium Tax Credit Calculation



        Family Size. Family size is defined as the number of exemptions reported on the tax
         return that the IRS used to obtain the IFSV information.
        Filing Status. The filing status is what was reported on the tax return that the IRS used to
         obtain the IFSV information.
        Household Income. Household income includes the applicant’s income and the total
         income of the other individuals in the house that are included in the family size and are
         required to file a tax return. The IRS will provide the Exchange with the total of the AGI,
         nontaxable interest, and foreign income exclusion. When present, it will also provide the
         amount of taxable Social Security benefits. The Exchange will obtain the amount of total
         Social Security benefits from the Social Security Administration to determine the amount
         of nontaxable Social Security benefits to be included in modified AGI. The modified
         AGI is defined in the ACA as AGI plus nontaxable interest, nontaxable Social Security
         benefits, and the amount of foreign income exclusion.
        Tax Year of the Tax Information Being Provided. For requests received during the
         current enrollment season,10 the IRS returned Tax Year 2012 or Tax Year 2011 tax
         information. The IRS would only provide Tax Year 2011 information if a tax return had
         not been filed for Tax Year 2012.
The IRS developed five external response codes to respond to Exchange requests. External
response codes provide a generic description as to why the IRS is not returning tax information
for the applicant. The IRS can return multiple external response codes in response to an IFSV
information request. Figure 3 lists the external IFSV information response codes.
                         Figure 3: External IFSV Information Response Codes

          External Response Code                                  Description
                         001                  Systemic error.
                         002                  Unable to provide data due to authentication issue.
                         003                  Unable to provide income due to spouse mismatch.
                         004                  Return information is unavailable.
                         008                  No dependent filing requirement.
         Source: The IRS’s IFSV Internal and External Response Code document.

The IRS sends its response to the IFSV information request to the Exchange via the Data Hub.
The Exchange uses the information provided to assist in predicting an applicant’s income and
family size for the requested health coverage period for which insurance is being obtained. It

10
 The current enrollment season to apply for insurance through an Exchange ran October 1, 2013, through
March 31, 2014.
                                                                                                         Page 5
                     Affordable Care Act: Accuracy of Responses to Exchange
                    Requests for Income and Family Size Verification Information
                      and Maximum Advance Premium Tax Credit Calculation



should be noted that the Exchange is not required to use the information the IRS provides as the
Exchange has the sole discretion in this process.
The IRS also developed 19 internal response codes which contain more specific information
regarding the reason information is not being returned to the Exchanges. Internal response codes
are for IRS use only and are not provided to the Exchanges. Figure 4 lists the internal IFSV
information response codes.
                          Figure 4: Internal IFSV Information Response Codes

         Internal
      Response Code                                           Description
              001           ********************2*******************************************.11 *******.
              004           ********************2*******************************************.
              005           ********************2*******************************************.

              006           ********************2*******************************************.

              007           ********************2*******************************************.

              008           ********************2*******************************************.

              009           ********************2*******************************************.

              012           ********************2*******************************************.

              013           ********************2*******************************************.

              014           ********************2*******************************************.

              015           ********************2*******************************************.

              017           ********************2*******************************************.

              018           ********************2*******************************************.

              020           ********************2*******************************************.

              021           ********************2*******************************************.

              022           ********************2*******************************************.

              023           ********************2*******************************************.

              024           ********************2*******************************************.

              025           ********************2*******************************************.

 Source: The IRS’s IFSV Internal and External Response Code document.



11
     **********2*******************************.
                                                                                                           Page 6
                     Affordable Care Act: Accuracy of Responses to Exchange
                    Requests for Income and Family Size Verification Information
                      and Maximum Advance Premium Tax Credit Calculation



APTC Calculation
Once the Exchange has determined that an individual’s predicted income and family size makes
them eligible to receive the APTC, the Exchange will send a request to the IRS to compute the
maximum amount of the APTC the individual could receive each month. The IRS has developed
a “PTC Calculator” to respond to these requests. As of March 31, 2014, the IRS had received
more than 11 million APTC requests.12 The Exchange provides the IRS the following
information for use in computing the maximum monthly APTC:
        Coverage Year. The year the health insurance will cover the applicant.
        Household Income. Household income is determined by the Exchange based on the
         individual’s projected income for the year for which health insurance coverage will be
         obtained.
        Income As a Percentage of the Federal Poverty Level (FPL). The FPL is a measure of
         income level issued annually by the Department of Health and Human Services. The
         FPL is used to determine eligibility for certain programs and benefits. Individuals’
         income must be between at least 100 percent but not more than 400 percent of the FPL to
         be eligible for the PTC.
        The Adjusted Premium of the Applicable Second Lowest Cost Silver Plan (SLCSP). The
         SLCSP refers to the level of coverage provided by the health plan. Health plans offered
         by the Exchange will be categorized as Platinum, Gold, Silver, Bronze, or Catastrophic,
         depending on the share of costs covered. For example, a Bronze plan will have a higher
         deductible than a Silver plan, and the Platinum plan will have a lower deductible than the
         Silver plan. A Silver plan will provide benefits that are actuarially equivalent to
         70 percent of the full actuarial value of the benefits provided under the plan. This means
         the plan will cover about 70 percent of the costs for covered medical services.
The IRS uses the information provided by the Exchange to estimate how much the applicant can
afford to pay for health insurance (referred to as Household Contribution) each month. The IRS
then compares the applicant’s estimated monthly Household Contribution to the monthly
premium for the SLCSP.13 If the monthly SLCSP premium is greater than the estimated monthly
Household Contribution, the applicant is eligible for the APTC. The maximum amount of the
monthly APTC is the difference between the monthly Household Contribution and the monthly




12
   The total number of APTC requests is lower than the number of IFSV information requests because an APTC
request will not be made when the IFSV information shows the income is too high to qualify for the APTC.
13
   The IRS uses the premium associated with the SLCSP because the ACA requires the use of this amount. For
example, there could be more than one plan in the Silver category and, as required, the IRS is using the premium of
the Silver Plan that has the second lowest cost associated with it.
                                                                                                            Page 7
                    Affordable Care Act: Accuracy of Responses to Exchange
                   Requests for Income and Family Size Verification Information
                     and Maximum Advance Premium Tax Credit Calculation



SLCSP premium. If the monthly SLCSP premium is less than the monthly Household
Contribution, the applicant is not eligible for the APTC.14 For example (hypothetical example):
        Individual A has household income of $50,000, which is 325 percent of the FPL. The
        SLCSP cost is $375 per month. The IRS calculates Individual A’s monthly Household
        Contribution as being $396. Because individual A’s Household Contribution is greater
        than the cost of the SLCSP, Individual A is not entitled to receive any APTC.
        Individual B has household income of $30,000, which is 162 percent of the FPL. The
        SLCSP cost is $1,000 per month. The IRS calculates Individual B’s monthly Household
        Contribution as being $114. Because Individual B’s Household Contribution is less than
        the cost of the SLCSP, Individual B is entitled to receive a monthly APTC in the amount
        of $886 ($1,000 – $114).
An individual can elect to receive the maximum monthly APTC, a portion of the maximum
monthly APTC, or no APTC. Once an individual selects his or her insurance coverage and how
he or she would like to receive the monthly APTC, the Exchange sends a request to the
U.S. Department of the Treasury’s Bureau of the Fiscal Service to issue monthly APTC
payments to the individual’s insurance provider. As of March 31, 2014, the Department of
Health and Human Services reported that more than $1.45 billion in APTCs has been paid to
insurers.

Reconciliation of APTC amounts received
During the 2015 Filing Season15 (filing of Tax Year 2014 tax returns), individuals will reconcile
the APTC on their Tax Year 2014 return. The individual will complete a Form 8962, Premium
Tax Credit Schedule, to reconcile the amounts of the APTC paid to an individual’s insurance
provider and the amount of the PTC allowed based on actual income reported. If the amount of
the APTC received during the tax year exceeds the actual PTC allowed, the amount paid in
excess will be additional tax due on the tax return. This can occur if the individual’s income
reported on his or her Tax Year 2014 tax return is higher than what was estimated by the
Exchange when determining the amount of the monthly APTC. The amount of additional tax an
individual will have to repay is capped if the individual’s income remains within 100 percent to
400 percent of the FPL. However, if the individual’s income is more than 400 percent of the
FPL, the individual will have to pay back the entire amount of the APTC received.




14
   In this instance, the IRS would return a figure for the Remainder Benchmark Household Contribution to the
Exchange. The Remainder Benchmark Household Contribution is used by the Exchange to determine the remaining
amount a family can be expected to contribute toward a second or subsequent policy.
15
   The period from January through mid-April when most individual income tax returns are filed.
                                                                                                    Page 8
                      Affordable Care Act: Accuracy of Responses to Exchange
                     Requests for Income and Family Size Verification Information
                       and Maximum Advance Premium Tax Credit Calculation



CDR
The CDR is the IRS’s main data repository for ACA initiatives. The CDR houses taxpayer data
from the Individual Master File,16 the Individual Return Transaction File,17 and the Data Master
One18 file. The CDR will store a maximum of two years of a taxpayer’s data at any time. The
CDR will contain current year and previous tax year information for all taxpayers. For example,
for the 2014 enrollment period,19 the CDR contains tax information for Tax Years 2011 and 2012
for all taxpayers. The IRS loaded the first extracts of taxpayer data obtained from the source
databases into the CDR on September 7, 2013. The IRS updated the CDR information on
November 2, 2013; November 29, 2013; and January 26, 2014, and plans to execute subsequent
monthly updates.
The IRS uses the data contained in the CDR to respond to IFSV information requests from the
Exchanges. The IRS relies on the most recent tax return information maintained in the CDR for
the applicant and the applicant’s listed family members to respond to the Exchange requests. In
the future, the CDR will also house information received from the Exchange related to who
obtained insurance coverage, the period for which they had coverage, and the amount of any
APTC received.
This review was performed at the New Carrollton Federal Building in New Carrollton,
Maryland, and was performed with information obtained from the Affordable Care Act Office
Filing and Premium Tax Credit Strategy function and the Affordable Care Act Program
Management Office in Washington, D.C., including the Income Verification and Information
Services function in Farmers Branch, Texas, during the period of July 2013 through April 2014.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




16
   The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
17
   The Individual Return Transaction File contains data transcribed from initial input of the original individual tax
returns during return processing.
18
   The Data Master One is a database of name controls and Taxpayer Identification Numbers received from
four sources: the Social Security Administration, IRS valid processing, the Individual Taxpayer Identification
Number file, and the Adoptive Taxpayer Identification Number file.
19
   The 2014 Exchange enrollment period was from October 1, 2013, through March 31, 2014.
                                                                                                               Page 9
                     Affordable Care Act: Accuracy of Responses to Exchange
                    Requests for Income and Family Size Verification Information
                      and Maximum Advance Premium Tax Credit Calculation




                                       Results of Review

Responses to Exchange Requests for Income and Family Size
Verification Information Are Mostly Accurate
Our review of the IRS’s response to 101,018 IFSV information requests received by the IRS
between October 1, 2013, and October 4, 2013, showed that the IRS provided accurate responses
for 100,985 (99.97 percent) of the 101,018 requests based on the information furnished by the
Exchange. We identified 33 requests for which the information contained in the CDR did not
reflect the most current name control for an individual for whom the Exchange was requesting
information from the IRS. A name control is the first four letters in an individual’s last name,
e.g., the name control for Smith would be SMIT. As a result, the IRS incorrectly notified the
Exchange that it could not provide tax information for these individuals because the IRS was
unable to match the name on the application to name control information maintained in the CDR.
Our analysis of taxpayer account information for the individuals in these 33 requests showed that
there was not a mismatch between the name provided by the Exchange and the name information
contained in the individual’s tax account.
We raised this concern to the IRS on March 26, 2014. The IRS stated that it had recently
identified an error with the computer programming used to capture the name control field from
the Data Master One file.20 This error occurred for individuals with more than five name
controls associated with their tax account on the Data Master One file. The programming to
capture the individual’s current and past name controls from the Data Master One file pulled the
individual’s first five name controls from the file rather than the most recent five name controls.
The IRS estimates that the name control information for approximately 2.8 million taxpayers
(1 percent) of the more than 283 million taxpayers could be incorrect in the CDR.
While the IRS estimates this error affects approximately 2.8 million taxpayers for which
information is contained in the CDR, the number of IFSV information requests received by the
IRS that are affected by the inaccurate CDR information is likely significantly less. Not all
individuals with tax information in the CDR are eligible to use the Exchange, and not all
individuals who are eligible will use the Exchange to purchase insurance. The IRS indicated it
has requested changes be made to the computer programming to correct the name control error
for the next Exchange enrollment period in November 2014.

20
  The data from the Data Master One file is loaded onto the Integrated Production Module. The Integrated
Production Module provides the business operating divisions access to current and historical taxpayer data via one
central data source to eliminate the need for multiple, often redundant, data sources. The data from the Integrated
Production Module are loaded into the CDR.
                                                                                                           Page 10
                  Affordable Care Act: Accuracy of Responses to Exchange
                 Requests for Income and Family Size Verification Information
                   and Maximum Advance Premium Tax Credit Calculation



External and internal IFSV information response codes accurately reflect
information in the CDR
Our review verified that all five of the external response codes and 16 of the 19 internal response
codes the IRS uses to respond to IFSV information requests accurately reflect information
contained in the CDR. We were unable to verify the accuracy of three (codes 007, 013, and 015)
of the 19 internal response codes because these codes were not applicable to the 101,018 IFSV
information requests we reviewed.
Although the computer programming used to generate the internal and external response codes is
accurate, we determined that inaccurate information in the CDR resulted in an incorrect response
to 33 of the 2,613 IFSV information requests we reviewed for which the IRS generated an
internal response code 018. Internal response code 018 indicates the *******2*********
**************************************2***************************************
****2*****

Most Data received from the CDR matched data contained in source files
Our assessment of the tax account information contained in the CDR between October 1 and
October 4, 2013, showed that most of the information from the CDR agreed with the information
contained in source files including the Individual Return Transaction File, the Individual Master
File, and the Data Master One file. As previously discussed, the CDR does not accurately reflect
the prior names used by an individual when an individual has more than five prior names shown
in the Data Master One file. The IRS is taking steps to correct the name information for these
individuals for the next Exchange enrollment period beginning November 2014.

Recommendation
Recommendation 1: The Chief Technology Officer should ensure that the CDR accurately
reflects an individual’s most recent name controls contained in the Data Master One file.
       Management’s Response: IRS management agreed with our recommendation. The
       IRS has already implemented programming modifications so that name control fields are
       now consistent with the Individual Master File.

Responses to Exchange Requests for Maximum Monthly Advance
Premium Tax Credit Calculations Are Accurate
Our review of the IRS’s response to 120,824 APTC requests received between October 1 and
October 14, 2013, found that the IRS’s calculation of the maximum monthly APTC using the
information provided by the Exchanges was accurate for all 120,824 requests. As part of our
analysis of the accuracy of the IRS’s computation of the maximum monthly APTC, we reviewed
the ACA and Treasury regulations in place at the time of our review. Treasury regulations

                                                                                           Page 11
                  Affordable Care Act: Accuracy of Responses to Exchange
                 Requests for Income and Family Size Verification Information
                   and Maximum Advance Premium Tax Credit Calculation



provide the official interpretation of the Internal Revenue Code by the Department of the
Treasury.
Our review identified four responses with a discrepancy between the IRS’s calculation of the
maximum monthly APTC and the Treasury regulations in place at the time of our review.
Specifically, the tables provided in the regulations indicate that the PTC, and as such the APTC,
should be calculated for those applicants with incomes “less than 400%” of the FPL. For these
four IRS responses, the applicant’s income was exactly 400 percent of the FPL. We requested
information regarding the legal guidance received by the IRS related to providing APTC
calculations for applicants with income at 400 percent of the FPL on January 23, 2014. The IRS
provided documentation that shows proposed changes to the Treasury regulations will clarify
that the PTC as well as the APTC is available to individuals whose income is exactly 400 percent
of the FPL.




                                                                                            Page 12
                     Affordable Care Act: Accuracy of Responses to Exchange
                    Requests for Income and Family Size Verification Information
                      and Maximum Advance Premium Tax Credit Calculation



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to assess the accuracy of responses to Exchange requests for Income
and Family Size Verification information for the purposes of determining insurance eligibility
and the maximum Advance Premium Tax Credit the individual could receive each month. Our
review was limited to verifying the accuracy of the IRS’s calculations during the eligibility and
enrollment process. To accomplish our objective, we:
I.      Determined if the IRS was accurately calculating the IFSV information during the
        eligibility and enrollment process.
        A. Obtained and reviewed the IFSV Project documentation and business requirements
           and reviewed the ACA legislation.
        B. Determined whether the IRS was accurately calculating the household income and
           family size information it provided to the Exchanges.
             1. Obtained an extract of 101,018 IFSV information requests received by the IRS
                between October 1 and October 4, 2013, and the IRS’s response to the
                101,018 requests. Beginning on October 1, 2013, the IRS captured IFSV
                information request and response data received during an off-peak window,
                e.g., 2:00 a.m. to 4:00 a.m., until it had selected at least 100,000 IFSV information
                requests.1 We validated the reliability of the data extracts by ensuring that the tax
                return data fields were supported by data contained in the IRS’s Integrated Data
                Retrieval System2 and by comparing information in the tables created by our
                Strategic Data Services to the source data provided by the IRS.3
             2. Using information contained in the IRS Individual Return Transaction File, the
                Individual Master File, and the Data Master One file, independently calculated the
                applicant’s household income and family size for each request. We then
                compared our calculation to the IFSV information contained in the IRS’s
                response.



1
  The IRS opted to pull our requested data during the off-peak window rather than capturing the first
100,000 requests received because we asked that our request be performed in a way that would prevent negative
effects to system performance.
2
  IRS computer system capable of retrieving or updating stored information. It works in conjunction with a
taxpayer’s account records.
3
  The IRS provided text files in Extensible Markup Language for the IFSV information and PTC transactions.
                                                                                                        Page 13
                      Affordable Care Act: Accuracy of Responses to Exchange
                     Requests for Income and Family Size Verification Information
                       and Maximum Advance Premium Tax Credit Calculation



             3. Using information contained in the IRS Individual Master File, the Individual
                Return Transaction File, and the Data Master One file, verified the accuracy of
                information contained in the CDR. We verified the accuracy of the information
                reflected in the internal CDR transactions associated with the 101,018 IFSV
                information requests we reviewed.
II.      Determined if the IRS accurately calculated the APTC during the eligibility and
         enrollment process.4
         A. Obtained and reviewed the IRS project documentation and business requirements
            relevant to the APTC and determined how the IRS calculates the APTC.
         B. Reviewed the ACA legislation, the Internal Revenue Code, and Treasury regulations
            to determine how the APTC is to be computed.
         C. Determined if the IRS accurately calculated the APTC in response to requests from
            the Exchanges.
             1. Obtained an extract of 120,824 requests for an APTC calculation received by the
                IRS between October 1 and October 14, 2013, along with the IRS’s response to
                each request. Beginning on October 1, 2013, the IRS captured APTC request data
                received during an off-peak window, e.g., 2:00 a.m. to 4:00 a.m., until it had
                selected at least 100,000 APTC requests.5 We validated the reliability of the data
                extracts by comparing information in the tables created by the Treasury Inspector
                General for Tax Administration’s Strategic Data Services to the source data files
                provided by the IRS.
             2. Using the information contained in the APTC request, independently computed
                the APTC for each request. We then compared our computation of the APTC to
                the APTC contained in IRS’s response to the Exchange request.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the IRS’s policies and

4
  If the amount the taxpayer could contribute was more than the cost of his or her insurance, the IRS will return a
figure for the Remainder Benchmark Household Contribution to the Exchange. The Remainder Benchmark
Household Contribution is used by the Exchange to determine the remaining amount a family can be expected to
contribute toward a second or subsequent policy.
5
  The IRS opted to pull our requested data during the off-peak window rather than capturing the first
100,000 requests received because we asked that our request be performed in a way that would prevent negative
effects to system performance.
                                                                                                             Page 14
                 Affordable Care Act: Accuracy of Responses to Exchange
                Requests for Income and Family Size Verification Information
                  and Maximum Advance Premium Tax Credit Calculation



procedures to document the programming of the IFSV information and PTC calculations and the
processes the IRS developed to monitor the performance of the IFSV information and PTC
processes. We evaluated these controls by interviewing management, obtaining data extracts of
the IFSV information and APTC responses, and reviewing the related IFSV information and
APTC calculations obtained in the responses.




                                                                                      Page 15
                  Affordable Care Act: Accuracy of Responses to Exchange
                 Requests for Income and Family Size Verification Information
                   and Maximum Advance Premium Tax Credit Calculation



                                                                                Appendix II

                 Major Contributors to This Report

Russell P. Martin, Acting Assistant Inspector General for Audit (Returns Processing and
Account Services)
Deann L. Baiza, Director
Sharla J. Robinson, Audit Manager
Linna K. Hung, Lead Auditor
Laura P. Haws, Senior Auditor
Steven D. Stephens, Senior Auditor
Nikole L. Smith, Auditor
Kevin O’Gallagher, Information Technology Specialist




                                                                                          Page 16
                Affordable Care Act: Accuracy of Responses to Exchange
               Requests for Income and Family Size Verification Information
                 and Maximum Advance Premium Tax Credit Calculation



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
National Taxpayer Advocate TA
Chief Technology Officer OS:CTO
Associate Chief Information Officer, Affordable Care Act (PMO) OS:CTO:ACA
Director, Affordable Care Act Office SE:ACA
Director, Filing and Premium Tax Credit Strategy SE:ACA
Director, Project Management Office SE:ACA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Affordable Care Act Office SE:ACA:ONE




                                                                              Page 17
     Affordable Care Act: Accuracy of Responses to Exchange
    Requests for Income and Family Size Verification Information
      and Maximum Advance Premium Tax Credit Calculation



                                                     Appendix IV

Management’s Response to the Draft Report




                                                            Page 18
 Affordable Care Act: Accuracy of Responses to Exchange
Requests for Income and Family Size Verification Information
  and Maximum Advance Premium Tax Credit Calculation




                                                        Page 19
